Brian H. Fletcher
Associate Professor of Law
Co-Director,
Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.3345
bfletcher@law.stanford.edu

September 22, 2020

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Lange v. California, No. 20-18

Dear Mr. Harris:
In accordance with Rule 15.5 of the Rules of this Court, petitioner hereby
waives the 14-day waiting period for distribution of the petition and requests
that the petition be distributed on September 23, 2020 for the conference on
October 9, 2020. Petitioner will file his reply brief on September 23.
Thank you very much for your assistance in this matter.
Very truly yours,

Brian H. Fletcher

Counsel for Petitioner
cc: All counsel

Community Law v Criminal Defense v Environmental Law v Immigrants' Rights
International Human Rights and Conflict Resolution v Juelsgaard Intellectual Property and Innovation
Organizations and Transactions v Religious Liberty v Supreme Court Litigation v Youth and Education Law Project

